MARCH 6, 2012
  AUDIT REPORT




                                                      OFFICE OF AUDITS




         REVIEW OF NASA’S LESSONS LEARNED
                INFORMATION SYSTEM




                                           OFFICE OF INSPECTOR GENERAL




                                                      National Aeronautics and
                                                          Space Administration




  REPORT NO. IG-12-012 (ASSIGNMENT NO. A-11-010-00)
Final report released by:




Paul K. Martin
Inspector General




Acronyms

APPEL        Academy of Program/Project and Engineering Leadership
FY           Fiscal Year
GAO          Government Accountability Office
JPL          Jet Propulsion Laboratory
LLIS         Lessons Learned Information System
NEN          NASA Engineering Network
NPR          NASA Procedural Requirements


                                                                 REPORT NO. IG-12-012
MARCH 6, 2012




                                                                                             OVERVIEW

                        REVIEW OF NASA’S LESSONS LEARNED
                               INFORMATION SYSTEM

                                                                                               The Issue

  Successful organizations develop systems to share information from past successes and
  failures as part of their knowledge management practices. NASA defines these “lessons
  learned” as knowledge or understanding gained by experience. This experience may be
  positive, as in a successful test or mission, or negative, as in a mishap or failure. Sharing
  lessons learned can reduce risk, improve efficiency, promote validated processes, and
  improve performance in ongoing and future NASA projects.

  Since 1994, NASA’s principal mechanism for collecting and sharing lessons learned
  from Agency programs and projects has been an online, automated database called the
  Lessons Learned Information System (LLIS). 1 The information in LLIS is drawn from
  individuals, directorates, programs, projects, and any supporting organizations and
  personnel across NASA, including engineering, technical, science, operations,
  administrative, procurement, management, safety, maintenance, training, flight and
  ground-based systems, facilities, medical, and other activities. LLIS is one component of
  NASA’s larger knowledge management and sharing system, which includes the online
  NASA Engineering Network (NEN), NASA’s Academy of Program/Project and
  Engineering Leadership (APPEL) training, ASK Magazine, the Masters Forum, and the
  annual Project Management Challenge seminar. 2

  NASA’s policy on lessons learned requires the collection, validation, assessment, and
  codification of lessons learned submitted by individuals, NASA directorates, programs


  1
      The public can access LLIS at http://llis.nasa.gov/llis/search/home.jsp (accessed March 5, 2012).
  2
      NASA launched the NEN website (https://nen.nasa.gov/web/nen/home) in 2005 to bring together the
      Agency’s knowledge management and sharing system components, including LLIS. NEN provides
      NASA personnel a portal to access, create, and share lessons learned; interact with subject-matter experts
      and practitioners; search many NASA repositories of interest; and find tools and information resources.
      NEN’s suite of information retrieval and knowledge sharing tools has the capability of searching for
      lessons learned across the Agency’s multiple repositories, including LLIS. APPEL provides training to
      meet the learning and development objectives of the NASA program and project management and
      engineering communities. ASK Magazine is designed for program/project managers and engineers to
      share expertise and lessons learned with fellow practitioners. In the Masters Forum, participants share
      best practices and lessons learned with NASA employees and contractors. The Project Management
      Challenge seminar is an annual conference that examines current management trends and provides a
      forum for sharing lessons learned. In February 2012, the Office of the Chief Engineer announced that the
      Project Management Challenge conference would be discontinued in favor of other options, such as
      virtual seminars.



REPORT NO. IG-12-012
                                                                                                 OVERVIEW



     and projects, and any supporting organizations and personnel. 3 To this end, LLIS is
     designed to be searchable and available across the Agency to the broadest extent possible.
     The usefulness and value of LLIS is contingent on managers and engineers routinely
     consulting and submitting information to the system.

     The Office of the Chief Engineer has primary responsibility for oversight of NASA’s
     knowledge management and sharing system, including LLIS. A 2002 Government
     Accountability Office (GAO) report identified weaknesses in NASA’s lessons learned
     and knowledge management processes. 4 Specifically, GAO found that NASA did not
     routinely identify, collect, or share lessons learned by its program and project managers.
     GAO also concluded that NASA lacked strong management commitment to knowledge
     sharing and needed a well-defined business plan for implementing a knowledge
     management and sharing system that encourages and facilitates easier access to
     information. The report contained seven recommendations, including a suggestion to
     enhance LLIS and develop a knowledge management plan to articulate the relationship
     between lessons learned and the Agency’s overall knowledge management plan. NASA
     concurred with the recommendations and subsequently enhanced LLIS to accept
     submissions in multiple formats and improved the ability to search the system through
     the NEN website. However, NASA has yet to formalize a comprehensive knowledge
     management plan that articulates the role LLIS should play in the Agency’s plan for
     knowledge management.

     The NASA Office of Inspector General initiated this audit to examine the extent to which
     Agency managers use LLIS and how the system fits within NASA’s overall knowledge
     management strategy. Details of our audit’s scope and methodology are in Appendix A.

     Results

     NASA’s project managers do not routinely use LLIS to search for lessons identified by
     other projects or routinely contribute new information to LLIS. We found NASA’s
     policies regarding the input of lessons learned into LLIS have weakened over
     time; inconsistent policy direction and implementation for the Agency’s overall lessons
     learned program; disparate levels of funding for LLIS activities across NASA Centers;
     and deficient monitoring of critical Center-based LLIS activities. In addition, we found
     the Chief Engineer’s overall strategy for knowledge management, lessons learned, and
     LLIS is not well defined. Consequently, LLIS has been marginalized in favor of other
     NASA knowledge sharing system components and is of diminishing and questionable
     value.




     3
         NASA Procedural Requirements (NPR) 7120.6, “Lessons Learned Process,” March 22, 2005.
     4
         GAO, “NASA: Better Mechanisms Needed for Sharing Lessons Learned” (GAO-02-195, January 30,
         2002).



ii                                                                                  REPORT NO. IG-12-012
OVERVIEW



  Managers Are Not Using LLIS

  We found that NASA program and project managers rarely consult or contribute to LLIS
  even though they are directed to by NASA requirements and guidance. In fact, input to
  LLIS by most Centers has been minimal for several years. Specifically, other than the Jet
  Propulsion Laboratory (JPL), no NASA Center consistently contributed information to
  LLIS for the 6-year period from 2005 through 2010. For example, the Glenn Research
  Center and the Johnson Space Center contributed an average of one lesson per year
  compared to the nearly 12 per year contributed by JPL (see Table 1, page 9).

  We surveyed project managers for 28 of NASA’s 32 science and space flight projects
  launched between January 2005 and May 2011 to examine the extent to which they used
  and contributed to LLIS. 5 We found that these managers did not consistently search
  LLIS for lessons identified by other programs and projects that could potentially reduce
  risk to their projects. Specifically, only 16 of the 28 (57 percent) project managers
  indicated that they used LLIS during the project acquisition life cycle, with the extent of
  usage varying widely by project. We also found that the project managers did not
  routinely contribute to LLIS, with only 12 of the 28 project managers (43 percent)
  contributing lessons learned from their projects to LLIS.

  The project managers we surveyed offered a variety of reasons for not using or
  contributing to LLIS, including their belief that LLIS is outdated, is not user friendly, and
  does not contain information relevant to their projects. They also cited competing
  demands on their time in managing their respective projects. Taken together, the lack of
  consistent input and usage has led to the marginalization of LLIS as a useful tool for
  project managers.

  Policy Requirements Weakened Over Time. Over time NASA has relaxed its internal
  requirements regarding the level and timing of project managers’ use of and contributions
  to LLIS. For example, program and project management policies issued in 2002 and
  2005 required managers to provide lessons learned for input to LLIS “throughout the
  project lifecycle, for example, at major milestones.” 6 In contrast, NASA’s current policy,
  in effect since 2007, does not explicitly require the use of LLIS and does not require
  project managers to identify or archive lessons learned until project conclusion or
  closeout. 7

  Inconsistent Policy Direction and Implementation. NASA published NASA
  Procedural Requirements (NPR) 7120.6, “Lessons Learned Process,” in 2005 to facilitate
  the capture of knowledge from individuals, projects, and programs. The NPR directs the

  5
      The other four projects were excluded because the project manager was not available, they were
      demonstration projects, or another agency was responsible for the project’s development.
  6
      NPR 7120.5B, “NASA Program and Project Management Processes and Requirements,” November 21,
      2002. NPR 7120.5C, “NASA Program and Project Management Processes and Requirements,”
      March 22, 2005.
  7
      NPR 7120.5D, “NASA Space Flight Program and Project Management Requirements,” March 6, 2007.



REPORT NO. IG-12-012                                                                                   iii
                                                                                                     OVERVIEW



     establishment of Center-level Lessons Learned Committees and describes the multiple-
     step process of inputting information to LLIS that involves project, Center, and
     Headquarters personnel. However, we found inconsistent implementation of these
     requirements across the Centers. For example, our survey of the lessons learned
     representatives at each NASA Center found that 8 of 10 Centers had not fully complied
     with the policy requirements when implementing their lessons learned processes and 4
     Centers did not even have a Center-level Lessons Learned Committee. Further, we found
     that 6 of 10 Centers did not cross-reference lessons learned to their management or
     engineering standards, thereby further limiting the effectiveness of lessons learned for the
     Centers’ programs and projects.

     In addition to the formal guidance provided in the NPR, the Chief Engineer and Chief of
     Safety and Mission Assurance issued a letter in February 2009 encouraging active
     participation by NASA senior leaders in institutionalizing and sharing lessons learned
     across the Agency (see Appendix B). In contrast to the formal policy, the letter
     encouraged NASA leaders to convene workshops to discuss and capture lessons learned
     immediately after completing individual elements of a project’s work while memories
     were fresh, rather than waiting until the end of the project’s mission. However,
     according to the Chief Engineer the letter did not result in a measureable improvement of
     the Centers’ use of the LLIS process to institutionalize lessons learned.

     Disparate Funding Support. We found disparate funding levels for LLIS activities at
     the Centers. The Chief Engineer provides most of the funding to support each Center’s
     lessons learned process. 8 Total LLIS funding for fiscal year (FY) 2011 across NASA
     was $782,000, with funding at the Centers ranging from a low of $21,785 at the Ames
     Research Center to a high of $305,095 at the Kennedy Space Center. At 8 of the 10
     Centers, funding is only a fraction of the amount needed to support one full-time
     employee. However, we found little evidence of correlation between funding levels and
     the number of lessons learned that Centers contributed to LLIS. For example, JPL
     received $70,000 between FYs 2008 and 2010, while Glenn received approximately
     $470,000. Nevertheless, over those 3 years, JPL contributed 35 lessons learned to
     Glenn’s 5. 9

     Lack of Monitoring. Since the issuance of NPR 7120.6 in March 2005, the Chief
     Engineer has completed an Agency-wide assessment of the lessons learned process just
     once, in 2010. We found that assessment to be inadequate because it did not review and
     evaluate whether the Center-level Lessons Learned Committees administered and
     oversaw the lessons learned process or whether the Committees promoted use of lessons
     learned throughout a project’s life cycle.


     8
         Only the Dryden Flight Research Center and JPL provided supplemental funding to support their LLIS
         process.
     9
         The Chief Engineer’s Advanced Planning and Analysis Division Manager stated that the funds provided
         to Kennedy also support lessons learned managerial functions at Headquarters and funding to Glenn
         supports Agency-wide knowledge sharing activities in addition to the Center Manager function.



iv                                                                                     REPORT NO. IG-12-012
OVERVIEW



  NASA Lacks a Comprehensive Strategy for Knowledge Management

  As noted above, LLIS is one component of NASA’s knowledge management strategy.
  However, we found that NASA’s strategy and plans for lessons learned and LLIS are not
  well defined. The Chief Engineer acknowledged that the lessons learned process and
  LLIS have not received the attention needed to enable them to function as originally
  designed and that his efforts to energize the NASA workforce in this effort, including the
  joint letter in 2009 and the 2010 assessment, have resulted in little measureable
  improvement in Centers’ use of the process or system. Finally, although he indicated that
  the NEN website will be a key element of any future strategic knowledge management
  plan, he conceded that how LLIS will fit into this future strategy has not been
  determined.

  Conclusion

  LLIS is underutilized and has been marginalized in favor of other NASA knowledge
  management tools such as Ask Magazine and the annual Project Management Challenge
  seminar. Users told us they found LLIS outdated, not user friendly, and generally
  unhelpful, and the Chief Engineer acknowledged that the system is not operating as
  originally designed. Although we believe that capturing and making available lessons
  learned is an important component of any knowledge management system, we found that,
  as currently structured, LLIS is not an effective tool for doing so. Accordingly, we
  question whether the three quarters of a million dollars NASA spends annually on LLIS
  activities constitutes a prudent investment.

                                                               Management Action

  We recommended that the Chief Engineer develop and implement a cohesive strategic
  plan for knowledge management and sharing, particularly with respect to lessons learned.
  As part of this plan, we recommended that he determine if or how LLIS fits into this plan
  and revise the applicable Agency policies accordingly, including:

      •   NPR 7120.5D – To establish program/project management requirements that
          align with NASA’s strategic vision for institutional knowledge management and
          sharing.

      •   NPR 7120.6 – To align Center and program/project management practices and
          improve the collection and dissemination of lessons learned Agency-wide by
          establishing requirements that can be supported by available resources.

  In response to a draft of this report, the Chief Engineer concurred with our
  recommendations and stated that his office, in accordance with a recommendation from
  NASA’s Aerospace Safety Advisory Panel, will assign an Agency Chief Knowledge
  Officer to develop and implement a strategic plan for knowledge management, including



REPORT NO. IG-12-012                                                                           v
                                                                                                     OVERVIEW



     LLIS. 10 The Chief Engineer also noted that LLIS is but one tool that NASA uses to
     capture knowledge and that he considers it a worthwhile investment. Finally, he stated
     that his office will consider what changes are needed to NPR 7120.6 and incorporate any
     changes in other engineering and program and project management requirements
     documents.

     We find the Chief Engineer’s proposed actions responsive to the intent of our
     recommendations and therefore will close the recommendations upon completion and
     verification of the proposed actions. However, because we continue to question the
     viability of LLIS in its current configuration, we urge the Chief Engineer to further
     consider LLIS’s role in NASA’s larger knowledge management system as part of the
     implementation of his proposed corrective actions. Management’s comments are
     reprinted in Appendix C.




     10
          NASA established the Aerospace Safety Advisory Panel in 1968 to evaluate safety performance and
          advise the Agency on ways to improve that performance.



vi                                                                                     REPORT NO. IG-12-012
MARCH 6, 2012




                                                         CONTENTS

  INTRODUCTION
      Background _________________________________________ 1
      Objectives __________________________________________ 7

  RESULTS
      The Lessons Learned Information System Is Underutilized ____ 8

  APPENDIX A
      Scope and Methodology _______________________________ 19
      Review of Internal Controls ____________________________ 20
      Prior Coverage ______________________________________ 21

  APPENDIX B
      Lessons Learned/Knowledge Sharing Letter _______________ 22

  APPENDIX C
      Management Comments ______________________________ 26

  APPENDIX D
      Report Distribution ___________________________________ 29




REPORT NO. IG-12-012
MARCH 6, 2012




                                                                             INTRODUCTION


Background

  NASA describes knowledge management as “the methods an organization uses to retain
  and pass along the knowledge produced by its workers, including libraries, archives,
  in-house magazines, and mentoring.” Effective knowledge management activities foster
  an environment in which the right information gets to the right people at the right time in
  ways that measurably improve performance.
  Over the years, NASA has identified three primary goals for its knowledge management
  systems and processes:
         1. Sustain NASA’s knowledge across missions and generations;
         2. Help people find, organize, and share NASA’s existing knowledge; and
         3. Increase collaboration and facilitate knowledge creation and sharing of lessons
            learned.

  Lessons learned preserve institutional knowledge and communicate experiences that can
  potentially reduce risk and improve efficiency and performance. NASA defines a lesson
  learned as knowledge or understanding gained by experience. The experience may be
  positive, as in a successful test or mission, or negative, as in a mishap or failure. These
  lessons may come from a variety of mission areas, including engineering, technical,
  science, operations, procurement, management, safety, and ground-based systems. The
  collection and dissemination of lessons learned is intended to contribute to the continuous
  improvement of program/project management and engineering, as well as to the
  prevention or reoccurrence of known problems. 11

  NASA policy requires that lessons learned be assessable and searchable across the
  Agency to the broadest extent possible. 12 To that end, NASA requires the capturing of
  lessons learned, establishment of Lessons Learned Committees at the Center level, and
  infusion of lessons learned into Headquarters and Center documentation and training so
  managers are better able to make informed decisions, avoid repeating costly mistakes,
  and successfully repeat positive achievements.

  Historically, NASA’s principal mechanism for collecting and sharing lessons learned
  from programs, projects, and missions Agency-wide has been the Lessons Learned

  11
       NASA Policy Directive 7120.4D, “NASA Engineering and Program/Project Management,” March 16,
       2010.
  12
       NASA Procedural Requirements (NPR) 7120.6, “Lessons Learned Process,” March 22, 2005.



REPORT NO. IG-12-012                                                                                 1
                                                                                                    INTRODUCTION



    Information System (LLIS). First established as a paper-based system in 1992 and
    operating as an automated web-based system since 1994, LLIS is intended to facilitate
    the capture and sharing of lessons learned across all NASA Centers. 13 The primary
    purpose of LLIS is to provide a searchable repository of information that allows NASA
    managers to learn from past activities. LLIS is part of NASA’s wider knowledge
    management and sharing system, which includes:

           •   The NASA Engineering Network (NEN), a website launched in 2005 to bring
               together the Agency’s knowledge management and sharing system components
               (https://nen.nasa.gov/web/nen/home). NEN provides NASA personnel the
               capability to access, create, and share lessons learned; interact with subject matter
               experts and practitioners; search many NASA repositories of interest; and find
               tools and information resources. NEN’s suite of information retrieval and
               knowledge sharing tools has the capability of searching for lessons learned across
               the Agency’s multiple repositories, including LLIS.

           •   The Academy of Program/Project and Engineering Leadership (APPEL), provides
               training to meet the learning and development objectives of the NASA program
               and project management and engineering communities.

           •   ASK Magazine, designed for program and project managers and engineers to
               share expertise and lessons learned with fellow practitioners. Published four
               times yearly, the magazine includes articles about meeting the technical and
               managerial demands of complex projects, as well as insights into organizational
               knowledge, learning, collaboration, performance measurement and evaluation,
               and scheduling.

           •   The Masters Forum, a program designed to share best practices and lessons
               learned. The forums are interactive 3-day events where project managers and
               engineers learn from fellow practitioners who are invited to share their
               experiences on high-profile projects, including the Space Shuttle, International
               Space Station, and Constellation programs.

           •   The Project Management Challenge seminar, designed to examine current
               management trends and provide a forum for knowledge sharing and exchanging
               lessons learned on project management issues. Approximately 20 percent of
               NASA managers attend the annual Project Management Challenge seminar. 14




    13
         The public can access LLIS at http://llis.nasa.gov/llis/search/home.jsp (accessed March 5, 2012).
    14
         In February 2012, the Office of the Chief Engineer announced that the seminar would be discontinued.



2                                                                                          REPORT NO. IG-12-012
INTRODUCTION



  Development of NASA’s Lessons Learned Policy

  In December 2000, the Chief Engineer issued a report identifying the need to improve
  communication across the Agency, including improving knowledge management
  practices. 15 The report noted several initiatives underway to improve the sharing of
  knowledge but emphasized that more needed to be done to promote the continuous
  capture, dissemination, and use of Agency knowledge. The report stated that the primary
  mechanism for promoting knowledge management should be an improved lessons
  learned tool.

  The following year, the Government Accountability Office (GAO) surveyed all NASA
  program and project managers and found fundamental weaknesses in the collection and
  sharing of lessons learned Agency-wide. 16 Specifically, GAO found that lessons learned
  were not routinely identified, collected, or shared by program and project managers. In
  addition, many respondents indicated that they were dissatisfied with NASA’s lessons
  learned processes and LLIS. A 2002 GAO report made a number of recommendations to
  strengthen the Agency’s lessons learned processes and systems, including enhancing
  LLIS, implementing a plan that articulates the relationship between lessons learned and
  NASA’s overall knowledge management objectives, and designating an Agency-wide
  lessons learned manager. 17

  In response to the GAO report, NASA chartered a NASA Knowledge Management
  Team, consisting of 38 employees from Headquarters and the Centers, to review NASA’s
  knowledge management activities. One of the early pilots implemented under the Team
  was a redesign of LLIS to better infuse lessons learned into day-to-day project activities.
  Moreover, in April 2002, the Team issued in draft a “Strategic Plan for Knowledge
  Management,” which addressed GAO’s recommendations to strengthen the Agency’s
  lessons learned processes and systems. The Team’s plan stated that knowledge
  management applications are the key to helping bring the right information to the right
  people at the right time. The focus of the redesign was an attempt to deliver key
  information to project members at the time they are making a critical decision. However,
  this draft strategic plan was not finalized or published.

  Current Lessons Learned Policy

  In March 2005, NASA Procedural Requirements (NPR) 7120.6 established the
  requirements for the collection, validation, assessment, and codification of lessons
  learned submitted by individuals, NASA Mission Directorates, programs and projects,

  15
       NASA, “Enhancing Mission Success – A Framework for the Future,” December 21, 2000,
       http://history.nasa.gov/niat.pdf (accessed March 5, 2012).
  16
       GAO, “Survey of NASA’s Lessons Learned Process” (GAO-01-1015R, September 5, 2001). Available
       at http://www.gao.gov/new.items/d011015r.pdf (accessed March 5, 2012).
  17
       GAO, “NASA: Better Mechanisms Needed for Sharing Lessons Learned” (GAO-02-195, January 30,
       2002). Available at http://www.gao.gov/new.items/d02195.pdf (accessed March 5, 2012).



REPORT NO. IG-12-012                                                                                  3
                                                                                 INTRODUCTION



    and any supporting organizations and personnel. The NPR assigns to the Office of the
    Chief Engineer primary oversight of the NASA lessons learned process, to include
    developing and maintaining LLIS. In addition, the NPR requires the establishment of
    Lessons Learned Committees at both the Headquarters and Center level, a Curator who
    uploads approved lessons learned to LLIS, and “closed-loop infusion of lessons learned
    recommendations into Center and HQ [Headquarters] documentation and training.”

    The Center-level Lessons Learned Committees are headed by Center Data Managers
    (Center Managers) and are expected to administer the lessons learned process at each
    Center as well as support the Headquarters-level Lessons Learned Steering Committee.
    The Center-level Committees are the primary mechanism for collecting, assessing,
    validating, and documenting lessons learned into Center-level documentation and
    training. The Committees are responsible for maintaining the Center-specific lessons
    learned process; administering and overseeing the process of transforming a lesson into a
    complete formatted lesson for Headquarters review and input to LLIS; coordinating the
    transfer of lessons learned into the Center’s corrective action system; and promoting the
    use of lessons learned during the life cycle of program or projects at their Centers.

    The Center-level Committees either identify lessons learned on their own or receive them
    from a submitter or from the NEN website. The Committees validate the lesson with a
    subject matter expert if required, develop a recommendation, and refine the knowledge
    captured into a lesson for Headquarters review. Prior to submitting the lesson to
    Headquarters, Center Managers coordinate export control, patent, legal, and public affairs
    clearance of the information.

    The Headquarters-level Steering Committee is chaired by the Headquarters Data
    Manager (HQ Manager) and is composed of a group of Headquarters and Center
    representatives, including the Center Managers, who provide guidance and develop
    policies related to sharing and using NASA’s lessons learned. The Steering Committee is
    expected to facilitate sharing of lessons learned activities across Centers. The HQ
    Manager reviews lessons learned submitted by Center Managers and Headquarters
    personnel and is responsible for processing lessons learned submitted by the Centers;
    coordinating the transfer of the lessons learned recommendations requiring Headquarters
    action to the Headquarters corrective action system; coordinating trend analysis of
    lessons learned; and maintaining lessons learned process metrics.

    The Curator uploads lessons approved by the HQ Manager to LLIS. In addition, the
    Curator is responsible for ensuring LLIS is maintained in accordance with Federal
    records and Agency policy; providing usage metrics information to the Center-level
    Committees and the Steering Committee; providing helpdesk functions for the LLIS
    website; and providing a final quality assurance function on lessons released by the HQ
    Manager.




4                                                                         REPORT NO. IG-12-012
INTRODUCTION



  The figure below illustrates how information flows into LLIS at NASA.

                                Lessons Learned Input Process




   Source: NPR 7120.6.




  Additional Policies Governing Lessons Learned

  NASA Policy Directive 7120.4D, “NASA Engineering and Program/Project Management
  Policy,” March 16, 2010, states that it is NASA’s policy to collect, validate, and
  disseminate lessons to improve outcomes and prevent recurrence of known problems. It
  also states that lessons learned will be incorporated into Agency directives, standards, and


REPORT NO. IG-12-012                                                                             5
                                                                                           INTRODUCTION



    rules. Furthermore, it makes the Chief Engineer responsible for facilitating, promoting,
    and implementing the use of lessons learned and charges program and project managers
    with collecting, documenting, and submitting lessons learned in accordance with NPR
    7120.6.

    NPR 7120.5D, “NASA Space Flight Program and Project Management Requirements,”
    March 6, 2007, requires program and project managers to document how they will
    conduct operations using lessons learned and how they plan to capture lessons learned in
    accordance with NPR 7120.6. 18 The policy also states that the project manager and
    project team shall complete their analysis and archiving of lessons learned at the end of
    each project’s mission. However, the NPR contains no description of how managers are
    to implement the lessons learned process.

    NPR 7123.1A, “NASA Systems Engineering Processes and Requirements,” March 26,
    2007, established Agency-wide requirements for performing, supporting, and evaluating
    systems engineering. The processes described in this document were to build upon and
    apply best practices and lessons learned from NASA, other Government agencies, and
    industry. However, the NPR does not provide instructions regarding how to disposition
    lessons learned and contains no reference to LLIS and the process described in NPR
    7120.6.

    In February 2009, the Chief Engineer and the Chief of Safety and Mission Assurance
    issued a letter to all Centers and Mission Directorates describing LLIS enhancements and
    requesting active participation by NASA’s workforce to institutionalize lessons learned
    and share them across the Agency (see Appendix B). This informal policy guidance
    stated that at the conclusion of every significant development, when projects,
    instruments, subsystems, and other elements are completed, team leadership should
    convene a workshop to reflect on and capture lessons learned. The guidance further
    states that the effort to capture lessons learned should not wait until after a launch or
    closeout, but rather should take place immediately after a team has finished its major
    effort while memories are still fresh.

    Observations and Recommendations of the Aerospace Safety
      Advisory Panel

    The Aerospace Safety Advisory Panel, established in 1968 to evaluate NASA’s safety
    performance and advise the Agency on ways to improve that performance, has
    consistently emphasized the importance of knowledge sharing and capturing lessons
    learned. In its two most recent annual reports, the Panel highlighted the value of quickly
    capturing lessons learned in a format that is easily accessible, enables storage for


    18
         NASA Memorandum 7120-81, “NASA Space Flight Program and Project Management Requirements,”
         was issued on September 22, 2009, as an interim directive while NPR 7120.5D was being revised.
         Requirements of NPR 7120.5D discussed in this report were retained in the interim directive.



6                                                                                  REPORT NO. IG-12-012
INTRODUCTION



  long-term retrievability, and is searchable by personnel inside and outside the Agency. 19
  It also pointed out that while individual Center and programmatic efforts were excellent,
  more needed to be done to establish an Agency-wide process or tool to enable easy
  access to information resources. Consequently, in its Annual Report for 2010, the Panel
  recommended that NASA capture and document the lessons learned from the
  Constellation Program. 20 In response, NASA documented those lessons learned in a two-
  volume submission to LLIS. Furthermore, in its Annual Report for 2011, issued on
  January 25, 2012, the Panel recommended that NASA establish a Chief Knowledge
  Officer to integrate the capturing of lessons learned Agency-wide and consider creating
  Chief Knowledge Officer positions at the Centers and within the Mission Directorates.
  NASA is in the process of developing a course of action to address these
  recommendations.


Objectives

  The objective of our audit was to examine NASA’s use of LLIS and how the system fits
  within NASA’s overall knowledge management strategy. We also reviewed internal
  controls related to the objective. See Appendix A for details of the audit’s scope and
  methodology, our review of internal controls, and a list of prior coverage.




  19
       The Aerospace Safety Advisory Panel annual reports can be found at http://oiir.hq.nasa.gov/asap/
       (accessed March 5, 2012).
  20
       The Constellation Program was to develop the transportation and infrastructure necessary to enable a
       sustained and affordable human program to explore the Moon in preparation for further deep space
       exploration missions. The Program was canceled in February 2010.



REPORT NO. IG-12-012                                                                                          7
                                                                                      RESULTS




                                      THE LESSONS LEARNED INFORMATION
                                               SYSTEM IS UNDERUTILIZED

           We found that NASA project managers do not routinely use LLIS to search for
           lessons identified by other programs and projects or contribute information to LLIS.
           Project managers we surveyed said the system is not user friendly and that the
           information it contains is outdated and generally unhelpful. We also found that
           Agency policy requirements regarding when and how to input information into LLIS
           have been relaxed over time, policy direction has been inconsistent, LLIS-related
           funding was disparate across the Centers, and monitoring of the essential Center-
           level LLIS process was lacking. In addition, we found that the Chief Engineer’s
           strategy for knowledge management, lessons learned, and LLIS is not well defined
           and that his goal for LLIS was not well understood across the Centers and Mission
           Directorates. Consequently, LLIS has been marginalized in favor of other
           knowledge sharing initiatives.


Managers Are Not Consistently Using or Contributing to LLIS

    We found that NASA program and project managers did not use or contribute to LLIS in
    accordance with established requirements and guidance. In fact, LLIS input by most
    Centers has been minimal for the past several years. Specifically, from 2005 through
    2010 only JPL consistently contributed information to LLIS (see Table 1).




8                                                                        REPORT NO. IG-12-012
RESULTS




                                        Table 1. LLIS Input (by Facility and Year)

   Facility                  2010            2009       2008          2007         2006          2005       Total
    ARC                         0              0           0             3            0           34          37
    DFRC                        0              0           0             0            1           20          21
    GRC                         0              2           3             0            1             0          6
    GSFC                        0              1           1             0            0             5          7
    HQ                          0              1           1             2            0             0          4
    JPL                       10              15         10            12            10           14          71
    JSC                         0              1           0             0            5             0          6
                                    a
    KSC                       80               2           1             1            0             1         85
    LaRC                        0              1           0             0            2             8         11
    MSFC                        3              0           4             3            1             4         15
    SSC                         1              0           0             0            0             1          2
        Total                 94              23         20            21            20           87        265
    a
        78 of the 80 lessons learned submitted by Kennedy in 2010 related to the Space Shuttle Program.
    ARC:        Ames Research Center                               JSC:      Johnson Space Center
    DFRC:       Dryden Flight Research Center                      KSC:      Kennedy Space Center
    GRC:        Glenn Research Center                              LaRC:     Langley Research Center
    GSFC:       Goddard Space Flight Center                        MSFC:     Marshall Space Flight Center
    HQ:         NASA Headquarters                                  SCC:      Stennis Space Center
    JPL:        Jet Propulsion Laboratory



  We surveyed 28 managers of space and science projects launched between January 2005
  and May 2011 to determine the extent to which they used LLIS. We found that many of
  these managers did not routinely search LLIS for lessons that could potentially reduce or
  limit risk to their projects. We also found that many managers did not contribute
  information to the system.

  Contributions to LLIS. The managers we spoke with provided a variety of reasons for
  not contributing information to LLIS.

         •    “The lessons learned during the development and launch . . . were applied to the
              next satellite in the series, which is how the project routinely operated. Since
              these were specific items that only applied to . . . satellites developed by the
              project and would not be useful for any other project, they were not entered into
              LLIS.”

         •    “We did not contribute lessons learned to LLIS during the project life cycle,
              primarily because we delivered unique one-of-a-kind technology and components



REPORT NO. IG-12-012                                                                                                9
                                                                                                         RESULTS



                for the . . . missions. Rather, the process and maturation efforts for the delivered
                hardware were documented in publications and technical reports available from
                the NASA Scientific and Technical Information System.”

            •   “Not to the LLIS, but [we] did through participation on the PM [Project
                Management] Challenge, multiple Road to Mission Success presentations, and
                the . . . Masters Forum. The main reason for not entering data directly into the
                NASA system is that it is just not an effective tool.”

     In addition, managers were generally unaware of NASA’s policy requirements for
     contributing to LLIS. Of the 28 project managers we surveyed, only 10 were familiar
     with the requirement in NPR 7120.5D to contribute lessons to LLIS. 21 Moreover, of
     these 10, some said they simply had not complied with the policy.

     The project managers provided varying reasons for their noncompliance with NASA’s
     lessons learned policy, including

            •   no explicit statement in NPR 7120.5D requiring them to capture lessons learned
                by inputting information into LLIS;

            •   NPR 7120.5D requires periodic reviews and additional scrutiny from various
                external review boards that meet the intent of the lessons learned policy;

            •   inadequate resources necessary to implement the requirements; and

            •   lessons learned reporting is a low priority, time-consuming process.

     One project manager offered the following observation about the roles and
     responsibilities of project managers in regard to contributing information to LLIS:
                No, it was not clear what the Project’s specific obligations were beyond ensuring the
                previous lessons learned were taken into account and the general obligation to capture
                them in some way at completion. The primary reason that lessons learned are not
                formally well captured is that during the execution of a flight project, capturing and
                documenting lessons learned is essentially unfunded scope for an effort that is almost
                always cost- and schedule-challenged already. Once a mission is launched, it is
                quickly disbanded both for budgetary reasons, as well as to reassign critical human
                resources to ongoing Projects.

     Use of LLIS. Twelve of the project managers we surveyed said they did not use LLIS as
     a project management tool at all. Of the 16 project managers who stated they had used
     LLIS, the extent of use varied widely by project. Moreover, these managers provided a
     range of opinions about the value of LLIS, with only 6 describing LLIS as useful. These
     6 managers reported that they periodically searched LLIS for relevant lessons and

     21
          The 11 JPL managers we surveyed were focused primarily on JPL’s internal lessons learned process,
          which applies to all JPL projects.



10                                                                                        REPORT NO. IG-12-012
RESULTS



  incorporated lessons into their project management and engineering practices. The other
  10 managers said LLIS did not contribute to their projects’ success or provide any
  information that assisted in managing their projects.

  Project managers provided a variety of reasons for not using LLIS, including a lack of
  clear policy criteria requiring they do so and their belief that the system is outdated, is not
  user friendly, and does not contain information relevant to their projects. Some managers
  said that most of the information in the system did not apply to their projects because
  their projects were unique or the information was drawn from projects “vastly different”
  from their own. Others reported they found it difficult to find information in the system
  relevant to the specific issues they faced. One project manager stated, “[We] didn’t find
  anything useful, but we were able to say that we had checked this box.”


Other Factors Contributing to the Marginalization of LLIS

  Changes to NASA’s program and project management policies over time, inconsistent
  policy direction relating to the capture of lessons learned, uneven funding, and a lack of
  monitoring and oversight have contributed to the underutilization and marginalization
  of LLIS. Specifically, the relevant policies have become less specific regarding LLIS
  over time; funding provided to most of the Centers by Headquarters for their lessons
  learned processes has been minimal; and the Center-based process for recommending and
  reviewing potential lessons learned has not been adequately monitored.

  Historical Changes to Lessons Learned Requirements. Over time, NASA policy
  regarding when managers should capture and contribute lessons learned to LLIS has
  changed. Specifically, the program and project management policies issued in 2002 and
  2005 required project managers to capture and contribute lessons learned to LLIS
  throughout a project’s life cycle. However, the current policy only requires these actions
  at project closeout.

          2002 Policy. NPR 7120.5B stated that “at each major milestone” program and
  project managers shall report the extent to which they applied lessons learned. It also
  stated that the managers shall contribute to the body of knowledge all significant lessons
  learned at the end of formulation and implementation and as deemed appropriate. The
  policy also required that program and project managers report the extent to which they
  contributed lessons learned. Moreover, each program and project manager was required
  to apply significant lessons learned from past experiences at the beginning and during the
  conduct of each subprocess.

         2005 Policy. NPR 7120.5C also stated that the project manager shall provide the
  Office of the Chief Engineer with input to LLIS in the form of captured experiences and
  lessons learned by the project team “throughout the project lifecycle, for example, at
  major milestones.” It also required that the program manager evaluate lessons learned




REPORT NO. IG-12-012                                                                                11
                                                                                                        RESULTS



     from existing and previously executed programs and projects to identify applicable
     lessons for use in program planning and execution.

             Current Policy. In contrast to earlier policy requirements, NPR 7120.5D, issued
     March 6, 2007, provides no requirement that project managers use LLIS throughout a
     project’s life cycle. 22 Instead, it states that the project manager and project team shall
     complete analysis and archiving of lessons learned “during project decommissioning, or
     closeout.” Because most projects are executed over many years and may go through a
     number of management changes, this change diminishes the timeliness, usefulness, and
     number of documented lessons that are likely to be captured in LLIS. For example, if the
     original project manager failed to capture lessons learned from the project’s formulation
     phase, it is unlikely that a new project manager at closeout will identify those lessons,
     much less be able to capture the information for submission to LLIS.

     Inconsistent Policy Direction and Implementation. In contrast to the formal policy
     embodied in NPR 7120.5D, NASA’s Chief Engineer has urged managers to document
     lessons learned throughout a project’s life cycle. In his 2009 joint letter with the Chief of
     Safety and Mission Assurance (see Appendix B) he stated:
                At the conclusion of every significant development under your leadership – when
                projects, instruments, subsystems, elements completes its work – the team involved
                should convene a sharing workshop to reflect on and capture its lessons learned. This
                shouldn’t wait until after launch or closeout; it should take place immediately after
                the team has finished its major effort, while teams are still assembled and while
                memories are still fresh.

     However, the Chief Engineer acknowledged that this letter did not result in a measureable
     improvement of the Centers’ use of the LLIS process to institutionalize lessons learned.

     In addition, we also found that implementation of lessons learned process requirements
     across the Centers was inconsistent. We surveyed the lessons learned representatives at
     each NASA Center and found that only two, the Glenn Research Center and JPL, have
     fully complied with NASA policy in the implementation of their respective lessons
     learned processes. Specifically, when we examined the respective Centers’ processes
     against the requirements of NPR 7120.6, we found significant deficiencies. Per the NPR,
     Center-level Committees are the primary mechanism for collecting, assessing, validating,
     and documenting lessons into Center-level documentation and training. However, we
     found that 5 of the 10 NASA Centers did not use a Center-level Committee to develop
     potential lessons learned for Headquarters review and input to LLIS; 5 of 10 Centers did
     not use a Center-level Committee to coordinate transfer of lessons to the their Center’s
     corrective action system; 6 of 10 Centers did not use a Center-level Committee to
     promote the use of lessons learned throughout program and project life cycles; and 6 of
     10 Centers did not cross-reference lessons to their engineering standards. Collectively,

     22
          NASA Memorandum 7120-81, “NASA Space Flight Program and Project Management Requirements,”
          was issued on September 22, 2009, as an interim directive while NPR 7120.5D was being revised.
          Requirements of NPR 7120.5D discussed in this report were retained in the interim directive.



12                                                                                        REPORT NO. IG-12-012
RESULTS



  these process deficiencies limit the potential for new lessons learned to improve current
  and future NASA programs and projects. Table 2 shows the process deficiencies by
  Center.

                          Table 2. NPR 7120.6 Process Deficiencies by Center

            Center Committee          Center Committee           Center Committee           Lessons Learned
                Does Not             Does Not Coordinate         Does Not Promote           and Engineering
             Administer and           between LLIS and            Use of Lessons             Standards Not
             Oversee Lessons         Center’s Corrective        Learned throughout               Cross-
Center       Learned Process            Action System           Project’s Life Cycle          Referenced
ARC                                                                                               X
DFRC                 X                         X                           X                      X
GRC
GSFC                 X                         X                           X
JPL
JSC                  X                                                     X
KSC                                                                                               X
LaRC                 X                         X                           X                      X
MSFC                                           X                           X                      X
SSC                  X                         X                           X                      X
ARC:     Ames Research Center                           JSC:     Johnson Space Center
DFRC:    Dryden Flight Research Center                  KSC:     Kennedy Space Center
GRC:     Glenn Research Center                          LaRC:    Langley Research Center
GSFC:    Goddard Space Flight Center                    MSFC:    Marshall Space Flight Center
JPL:     Jet Propulsion Laboratory                      SSC:     Stennis Space Center



  Disparate Funding for LLIS Support. The Chief Engineer’s Office provides most of
  the funding to support the LLIS process at each of the Centers. 23 Total LLIS funding for
  fiscal year (FY) 2011 was $782,000, with funding per Center ranging from $21,785 at the
  Ames Research Center to $305,095 at the Kennedy Space Center. However, we found
  little correlation between the funding levels and the number of lessons learned
  contributed to LLIS. For example, JPL received a total of $70,000 for FYs 2008 through
  2010 while Glenn received approximately $470,000 for LLIS activities. 24 Over that
  3-year period, JPL contributed 35 lessons learned compared to Glenn’s 5 contributions.
  Table 3 shows the funding provided by Headquarters for the LLIS process at each NASA
  Center from FY 2006 through FY 2011.

  23
       Only the Dryden Research Center and JPL provided supplemental funding to support their LLIS process.
  24
       The Chief Engineer’s Advanced Planning and Analysis Division Manager stated that the funds provided
       to Kennedy also support the HQ Manager function and funding to Glenn supports Agency-wide
       knowledge sharing activities in addition to the Center Manager function.



REPORT NO. IG-12-012                                                                                          13
                                                                                               RESULTS




                                     Table 3. LLIS Funding by Center
Center           FY 2011          FY 2010      FY 2009       FY 2008           FY 2007      FY 2006
ARC            $ 21,785          $ 38,622      $ 28,066     $ 48,693          $ 54,854      $ 67,153
GRC              169,493           184,673      156,036       129,510            24,546       24,077
LaRC              38,780            15,952       34,818        36,342            27,747       23,194
DFRC              63,000            56,861       24,932          2,550            4,682       15,720
GSFC              42,331            52,453       18,372          3,784           57,405      357,564
JPL               34,000            30,000       20,000        20,000            35,000       35,000
MSFC              34,000            34,000       14,588          3,631           46,854       24,563
SSC               23,000            16,726       18,731        49,699            38,076       48,306
JSC               50,516            51,858       51,596        48,843            39,904        1,879
KSC              305,095           210,349      143,944       145,534           217,000       39,027
 Total         $782,000          $691,494      $511,083     $488,586          $546,068      $636,483
ARC:     Ames Research Center                      JSC:    Johnson Space Center
DFRC:    Dryden Flight Research Center             KSC:    Kennedy Space Center
GRC:     Glenn Research Center                     LaRC:   Langley Research Center
GSFC:    Goddard Space Flight Center               MSFC:   Marshall Space Flight Center
JPL:     Jet Propulsion Laboratory                 SSC:    Stennis Space Center



     Lack of Monitoring. The NASA lessons learned process implemented in March 2005
     requires periodic reviews to assess compliance with NPR 7120.6. However, since 2005,
     the Chief Engineer has completed only one such Agency-wide assessment, in 2010,
     which we found inadequate. Specifically, the review failed to assess and evaluate all of
     the essential elements of the lessons learned process such as whether the Center-level
     Lessons Learned Committees administered and oversaw the lessons learned process and
     whether the Committees promoted use of lessons learned throughout project’s life cycle
     (see Table 2 on page 13 for essential elements).

     In our judgment, the inconsistent policy directives and the disparate amounts provided to
     the Centers to support the LLIS process, combined with the Centers’ inconsistent
     implementation of policy requirements, has contributed to the reduced number of lessons
     learned added to LLIS, undercuts NASA’s commitment to building a robust lessons
     learned system, and reduces the use and significance of LLIS in favor of other
     components of knowledge sharing, such as the annual Project Management Challenge
     seminar and Ask Magazine.


Lack of a Formal Strategy for Knowledge Management

     NASA’s overall strategy for knowledge management, lessons learned, and how LLIS fits
     in is not well defined. We asked the Chief Engineer about the Agency’s 2002 draft


14                                                                                 REPORT NO. IG-12-012
RESULTS



  “Strategic Plan for Knowledge Management.” He conceded that the draft plan was never
  formalized. He also acknowledged that the lessons learned process and LLIS have not
  received the attention needed to enable them to function as originally designed and that
  his efforts to energize the NASA workforce in this effort, including the joint letter in
  2009 and the 2010 assessment, have resulted in little measureable improvement in the
  Centers’ use of the process or system. Finally, although he indicated that the NEN
  website will be a key element of any future strategic knowledge management plan, he
  conceded that how LLIS will fit into this overall strategy has not been determined.


Conclusion

  Following the failures of the Mars Climate Orbiter and Mars Polar Lander in the late
  1990s, the Office of the Chief Engineer was tasked with developing a plan for
  implementing the resulting mishap investigation boards’ recommendations. The Office’s
  report, released in 2000, made the following observations relating to lessons learned. 25
             The continuous capture and application of project knowledge and lessons learned
             must become a core business process within the Agency’s program and project
             management environment. Regular input into NASA’s knowledge bases, such as the
             lessons learned database, should be emphasized. Programs and projects should
             implement a “document-as-you-go” philosophy, promoting continuous knowledge
             capture for the benefit of current and future missions. More importantly, program and
             project managers must regularly utilize the knowledge management tools to apply
             previous lessons learned to their own projects. The Agency can provide help for
             individuals to understand, learn from, and apply the lessons of others to their own
             work as part of a daily routine.

  As of January 2012, the Agency has not met those goals. In fact, NASA’s Aerospace
  Safety Advisory Panel recently stated in its 2011 Annual Report that in spite of excellent
  examples of individual and specific programmatic efforts to facilitate knowledge sharing,
  these efforts do not ensure the identification and capture of critical knowledge or provide
  for an Agency-wide single process or tool for locating and accessing all information
  resources.

  Specifically, we found that LLIS is underutilized and has been marginalized in favor of
  other knowledge management tools such as Ask Magazine and the annual Project
  Management Challenge seminar. Users told us they found LLIS outdated, not user
  friendly, and generally unhelpful, and the Chief Engineer acknowledged that the system
  is not operating as originally designed. Although we believe that capturing and making
  available lessons learned is an important component of any knowledge management
  system, we found that, as currently structured, LLIS is not an effective tool for doing so.
  Consequently, we question whether the three quarters of a million dollars NASA spends
  annually on LLIS activities constitutes a prudent investment.

  25
       NASA, “Enhancing Mission Success – A Framework for the Future,” December 21, 2000,
       http://history.nasa.gov/niat.pdf (accessed March 5, 2012).



REPORT NO. IG-12-012                                                                                 15
                                                                                           RESULTS



Recommendations, Management’s Response, and Evaluation of
  Management’s Response

Given the importance of knowledge management and sharing and to align the mechanisms
used to capture and share lessons learned with available resources, we made the following
recommendations.

Recommendation 1. We recommended that the Chief Engineer develop and implement a
comprehensive strategy for institutional knowledge management that includes collection and
dissemination of lessons learned.

     Management’s Response. The Chief Engineer concurred, stating that in accordance
     with a recommendation from the Aerospace Safety Advisory Panel, a staff member from
     the Office of Chief Engineer will be assigned the role of Agency Chief Knowledge
     Officer and will be responsible for developing and implementing a comprehensive
     strategy for institutional knowledge management that will include collection and
     dissemination of lessons learned. The anticipated completion date is March 2013.

     Evaluation of Management’s Response. Management’s proposed actions are
     responsive; therefore, the recommendation is resolved and will be closed upon
     completion and verification of the proposed actions.

Recommendation 2. We recommended that the Chief Engineer determine if LLIS is worth
the cost of continued operation, support, and sustainment.

     Management’s Response. The Chief Engineer concurred, stating that although it is
     difficult to quantify the actual benefits of capturing and broadly sharing lessons learned,
     NASA recognizes the value of the process. He further stated that based on monthly LLIS
     utilization metrics, he believes the $750,000 his office spends on LLIS activities is a
     worthwhile investment.

     Evaluation of Management’s Response. We consider management’s actions
     responsive to the intent of the recommendation, and the recommendation is therefore
     resolved. Nevertheless, in light of our findings regarding the utilization level of LLIS by
     project managers, we remain skeptical about the value of continuing to invest in LLIS in
     the absence of significant actions to improve the current system. Accordingly, we urge
     the Chief Engineer to further consider LLIS’s role in NASA’s larger knowledge
     management system as part of the implementation of the Agency’s proposed corrective
     actions to our other recommendations. We will keep this recommendation open until the
     Chief Engineer and the Chief Knowledge Officer have had the opportunity to make this
     assessment and implement corrective actions.

Recommendation 3. We recommended that the Chief Engineer revise NPR 7120.5D to
establish program and project management requirements that align with NASA’s strategic
vision for institutional knowledge management and sharing.



16                                                                          REPORT NO. IG-12-012
RESULTS



  Management’s Response. The Chief Engineer concurred, stating that when revisions to
  NPR 7120.6 are complete his office will consider whether changes are required in other
  engineering and program and project management requirements documents.

  Evaluation of Management’s Response. Management’s proposed actions are
  responsive to the intent of the recommendation; therefore, the recommendation is
  resolved and will be closed upon completion and verification of the proposed actions.

Recommendation 4. We recommended that the Chief Engineer revise NPR 7120.6 to align
Center and program/project management practices and improve the collection and
dissemination of lessons learned Agency-wide by establishing requirements that can be
supported by available resources.

  Management’s Response. The Chief Engineer concurred, stating that his office hosted a
  Knowledge Services Retreat on February 26–29, 2012, with a focus on developing a
  strategy to change NPR 7120.6 by March 2013.

  Evaluation of Management’s Response. Management’s proposed actions are
  responsive; therefore, the recommendation is resolved and will be closed upon
  completion and verification of the proposed actions.




REPORT NO. IG-12-012                                                                       17
APPENDIXES




                                                                         APPENDIX A


Scope and Methodology

  We performed this audit from March 2011 through January 2012 in accordance with
  generally accepted government auditing standards. Those standards require that we plan
  and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
  basis for our findings and conclusions based on our audit objectives. We believe that the
  evidence obtained provides a reasonable basis for our findings and conclusions based on
  our audit objectives.

  We reviewed lessons learned requirements contained in several NASA policy documents,
  including the following:

      •   NPR 7120.5D, “NASA Space Flight Program and Project Management
          Requirements,” March 6, 2007, and NASA Memorandum 7120-81, “NASA
          Space Flight Program and Project Management Requirements,” September 22,
          2009, which was issued as an interim directive while NPR 7120.5D was being
          revised.
      •   NPR 7120.6, “Lessons Learned Process,” March 22, 2005.
      •   NPR 7120.7, “NASA Information Technology and Institutional Infrastructure
          Program and Project Management Requirements,” November 3, 2008.
      •   NPR 7120.8, “NASA Research and Technology Program and Project
          Management Requirements (w/change 1 dated 11/24/10).”
      •   NPR 7123.1A, “NASA Systems Engineering Processes and Requirements
          w/Change 1 (11/04/09).”
      •   NPR 7150.2A, “NASA Software Engineering Requirements,” November 19,
          2009.
      •   NPR 8621.1, “NASA Procedural Requirements for Mishap and Close Call
          Reporting, Investigating, and Recordkeeping w/Change 5 (03/15/2010).”

  To determine whether NASA had established processes for oversight, support, and
  facilitation of LLIS and whether those processes were functioning in accordance with the
  applicable NASA policies, we interviewed NASA and contractor personnel responsible
  for the collection, validation, assessment, and codification of lessons learned submitted
  by individuals, Mission Directorates, and programs and projects. Additionally, we
  surveyed the lessons learned process representatives at each Center for compliance with



REPORT NO. IG-12-012                                                                          19
                                                                                     APPENDIX A



     NPR 7120.6. Further, we reviewed all lessons inputted to LLIS during the period of
     review to determine the timeliness of the Headquarters review process.

     To determine use of and contributions to LLIS, we surveyed all 32 NASA flight projects
     launched from January 2005 to May 2011. We received and reviewed responses from 28
     flight project managers for 26 Science Mission Directorate projects and 2 Space
     Operations Mission Directorate projects. We did not receive responses from
     four projects: two were small-scale technology demonstration projects; the responsibility
     for the development of one project was with another agency; and the project manager for
     the fourth project was no longer with NASA.

     To determine whether NASA had taken appropriate actions in response to GAO’s 2002
     report, we interviewed personnel responsible for addressing GAO’s recommendations
     who were still with the Agency and reviewed source documents to verify that corrective
     actions were taken.

     To determine how NASA’s system and process compare with other significant entities’
     approaches to obtaining, documenting, and using lessons, we contacted and interviewed
     representatives of several entities from the public and private sectors.

     Use of Computer-Processed Data. We obtained computer-processed data from LLIS
     during the performance of this audit. We verified data obtained with corroborating
     testimony from NASA personnel and source documentation and found no reason to doubt
     the reliability and validity of LLIS data.


Review of Internal Controls

     We evaluated the Chief Engineer’s internal monitoring controls for compliance with the
     NPR 7120.6 process. We interviewed Government personnel at NASA Headquarters
     with oversight responsibilities specified in the NASA policy. We interviewed
     Government and contractor personnel located at the Centers with functional
     responsibilities defined in NASA policy. We conducted a compliance survey focused on
     the implementation of the lessons learned process at each Center. In our opinion, the
     combination of the Steering Committee meetings, NEN-generated process statistics, and
     “OCE [Office of the Chief Engineer] Requirement Compliance Surveys of Centers”
     appear collectively to be an adequate process-monitoring control for Headquarters and
     the Centers.




20                                                                        REPORT NO. IG-12-012
APPENDIX A



Prior Coverage

  No reports concerning LLIS have been issued by the NASA Office of Inspector General
  or GAO during the last 5 years. The following GAO reports, however, are of particular
  relevance to the subject of this report. Unrestricted reports can be accessed over the
  Internet http://www.gao.gov.

  “NASA: Better Mechanisms Needed for Sharing Lessons Learned” (GAO-02-195,
  January 30, 2002)

  “Survey of NASA’s Lessons Learned Process” (GAO-01-1015R, September 5, 2001)




REPORT NO. IG-12-012                                                                       21
                             APPENDIX B




     LESSONS LEARNED/KNOWLEDGE
                  SHARING LETTER




22                  REPORT NO. IG-12-012
APPENDIX B




REPORT NO. IG-12-012   23
              APPENDIX B




24   REPORT NO. IG-12-012
APPENDIX B




REPORT NO. IG-12-012   25
                       APPENDIX C




     MANAGEMENT COMMENTS




26            REPORT NO. IG-12-012
APPENDIX C




REPORT NO. IG-12-012   27
              APPENDIX C




28   REPORT NO. IG-12-012
APPENDIX D




                                                    REPORT DISTRIBUTION

National Aeronautics and Space Administration

  Administrator
  Deputy Administrator
  Chief of Staff
  Chief Engineer
  NASA Advisory Council’s Audit, Finance, and Analysis Committee
  NASA’s Aerospace Safety Advisory Panel
  Director, Ames Research Center
  Director, Dryden Flight Research Center
  Director, Glenn Research Center
  Director, Goddard Space Flight Center
  Director, Jet Propulsion Laboratory
  Director, Johnson Space Center
  Director, Kennedy Space Center
  Director, Langley Research Center
  Director, Marshall Space Flight Center
  Director, Stennis Space Center

Non-NASA Organizations and Individuals

  Office of Management and Budget
     Deputy Associate Director, Energy and Science Division
         Branch Chief, Science and Space Programs Branch
  Government Accountability Office
     Director, NASA Financial Management, Office of Financial Management and
        Assurance
     Director, NASA Issues, Office of Acquisition and Sourcing Management

Congressional Committees and Subcommittees, Chairman and
  Ranking Member

  Senate Committee on Appropriations
     Subcommittee on Commerce, Justice, Science, and Related Agencies
  Senate Committee on Commerce, Science, and Transportation
     Subcommittee on Science and Space
  Senate Committee on Homeland Security and Governmental Affairs




REPORT NO. IG-12-012                                                           29
                                                                              APPENDIX D



Congressional Committees and Subcommittees, Chairman and
  Ranking Member (continued)

     House Committee on Appropriations
        Subcommittee on Commerce, Justice, Science, and Related Agencies
     House Committee on Oversight and Government Reform
        Subcommittee on Government Organization, Efficiency, and Financial Management
     House Committee on Science, Space, and Technology
        Subcommittee on Investigations and Oversight
        Subcommittee on Space and Aeronautics




30                                                                  REPORT NO. IG-12-012
Major Contributors to the Report:
   Raymond Tolomeo, Director, Science and Aeronautics Research Directorate
   Tony Lawson, Project Manager
   Scott Collins, Senior Auditor
   Greg Lokey, Management Analyst
   Keren West, Management Analyst




REPORT NO. IG-12-012                                                         31
                                                                                         MARCH 6, 2012
                                                                          REPORT No. IG-12-012




                                                                                   OFFICE OF AUDITS

                                                                   OFFICE OF INSPECTOR GENERAL




ADDITIONAL COPIES
Visit http://oig.nasa.gov/audits/reports/FY12/ to obtain additional copies of this report, or contact the
Assistant Inspector General for Audits at 202-358-1232.

COMMENTS ON THIS REPORT
In order to help us improve the quality of our products, if you wish to comment on the quality or
usefulness of this report, please send your comments to Mr. Laurence Hawkins, Audit Operations and
Quality Assurance Director, at Laurence.B.Hawkins@nasa.gov or call 202-358-1543.

SUGGESTIONS FOR FUTURE AUDITS
To suggest ideas for or to request future audits, contact the Assistant Inspector General for Audits.
Ideas and requests can also be mailed to:
      Assistant Inspector General for Audits
      NASA Headquarters
      Washington, DC 20546-0001

NASA HOTLINE
To report fraud, waste, abuse, or mismanagement, contact the NASA OIG Hotline at 800-424-9183 or
800-535-8134 (TDD). You may also write to the NASA Inspector General, P.O. Box 23089, L’Enfant
Plaza Station, Washington, DC 20026, or use http://oig.nasa.gov/hotline.html#form. The identity of
each writer and caller can be kept confidential, upon request, to the extent permitted by law.
